DEUTSCH HUNT PLLC

March 27, 2020
BY ELECTRONIC FILING AND FIRST-CLASS MAIL

Honorable Scott S. Harris

Clerk of Court

Supreme Court of the United States
1 First Street, NE

Washington, DC 20543

Re: K.G.S., Individually and as Guardian and Next Friend of Baby Doe, a Minor
Child v. Facebook, Inc., No. 19-910

Dear Mr. Harris:

I represent petitioner in the above-referenced petition for certiorari. Based on the Court’s
case distribution schedule, the distribution date for this petition is expected to be April 8,
2020. Petitioner respectfully requests that distribution be delayed one week, until April 15,
2020, as Petitioner needs additional time to file a reply due to family members’ dislocations
and other difficulties relating to COVID-19, and as allowed under the Court’s miscellaneous
order of March 19, 2020. Respondent consents to this request.

Respectfully submitted, _

Eeflanne Ieg destted
Ruthanne Mary Deutsch

Counsel of Record for Petitioner

Cc: Mitchell P. Reich, Hogan Lovells

300 New Jersey Ave NW T: (202) 868-6915
Suite 900 F: (202) 609-8410
Washington, DC 20001 Email: dh@deutschhunt.com

Website: www.deutschhunt.com
